Service List:
Scott A. Kronland
Altshuler Berzon LLP
177 Post Street, Suite 300
San Francisco, CA 94108
Office: (415) 421-7151
skronland@altber.com
Counsel for all Respondents
Dina Kolker
Stroock & Stroock & Lavan LLP
180 Maiden Lane
New York, NY 10038
(212) 806-5606
dkolker@stroock.com
Counsel for New York State United Teachers, American Federation of Teachers
AFL-CIO, and Professional Staff Congress.
Hanan B. Kolko
Cohen, Weiss and Simon LLP
900 Third Ave, Suite 2100
New York NY 10022-4869
T: 212-563-4100
hkolko@cwsny.com
Counsel for Professional Staff Congress
Kent Hirozawa
Gladstein, Reif & Meginniss, LLP
39 Broadway
New York, NY 10006
(212) 228-7727
khirozawa@grmny.com
Counsel for American Federation of Labor and Congress of Industrial Organizations
David Slutsky
Levy Ratner, P.C.
8th Floor
80 8th Avenue
New York, NY 10001
(212) 627-8100
dslutsky@levyratner.com
Counsel for American Association of University Professors Collective Bargaining

Congress
Michael James Del Piano
New York United Teachers
9th Floor
52 Broadway
New York, NY 10004
(212) 228-3382
Michael.delpian@nysut.org
Counsel for National Education Association of the United States, Faculty
Association of Suffolk Community College, and United University Professions
(Farmingdale State College Chapter)
John J. Bursch
Counsel of Record
Bursch Law PLLC
9339 Cherry Valley Ave. SE, No. 78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com
Counsel for Petitioners David Seidemann and Bruce Martin
Gregory N. Longworth
Clark Hill PLC
200 Ottawa Ave. NW
Suite 500
Grand Rapids, MI 49503
(616) 608-1100
glongworth@clarkhill.com
Counsel for Petitioners David Seidemann and Bruce Martin

